                

                

                     U.S. ENVIRONMENTAL PROTECTION AGENCY 

                     OFFICE OF INSPECTOR GENERAL 




                     Early Warning Report:
                     Use of Unapproved
                     Asbestos Demolition Methods
                     May Threaten Public Health
                     Report No. 12-P-0125               December 14, 2011




Scan this mobile
code to learn more
about the EPA OIG.
Report Contributors:                               Eric Lewis
                                                   Martha Chang
                                                   Wendy Wierzbicki
                                                   Michael Wilson
                                                   Benjamin Beeson




Abbreviations

AACM          Alternative Asbestos Control Method
EPA           U.S. Environmental Protection Agency
NESHAP        National Emission Standards for Hazardous Air Pollutants
OSHA          Occupational Safety and Health Administration
RACM          Regulated asbestos-containing material




  Hotline
  To report fraud, waste, or abuse, contact us through one of the following methods:

  e-mail:    OIG_Hotline@epa.gov.                     write:    EPA Inspector General Hotline
  phone:     1-888-546-8740                                     1200 Pennsylvania Avenue NW
  fax:       202-566-2599                                       Mailcode 2431T
  online:    http://www.epa.gov/oig/hotline.htm.                Washington, DC 20460
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460


                                                                             THE INSPECTOR GENERAL




                                      December 14, 2011

MEMORANDUM

SUBJECT:	 Early Warning Report:
          Use of Unapproved Asbestos Demolition Methods
          May Threaten Public Health
          Report No. 12-P-0125


FROM: 	       Arthur A. Elkins, Jr.
              Inspector General

TO: 	         Lisa P. Jackson
              Administrator


The Office of Inspector General received allegations that the U.S. Environmental Protection
Agency (EPA) has authorized the use of unapproved methods to demolish buildings containing
asbestos. EPA may also have violated Occupational Safety and Health Administration (OSHA)
regulations designed to protect workers during previous experimental asbestos demolitions. Our
initial research indicates that these allegations have merit. We will continue to review these
allegations; however, the current and proposed use of unapproved methods requires your
immediate attention.

Background

Asbestos is a human carcinogen with no safe level of exposure. Asbestos exposure can lead to
serious diseases such as asbestosis, lung cancer, and mesothelioma. In 1973, EPA issued the
Asbestos National Emission Standards for Hazardous Air Pollutants (NESHAP) to protect
human health by reducing exposure to asbestos during building demolitions and other activities.
According to the Asbestos NESHAP, regulated asbestos-containing material (RACM) must be
removed by specially trained technicians prior to demolition. RACM does not need to be
removed when the building is structurally unsound and in danger of imminent collapse. This
method reduces the release of friable asbestos by removing asbestos intact.

Beginning in 1999, EPA considered alternative methods to augment the Asbestos NESHAP.
These demolition methods, such as the Fort Worth Method and the Alternative Asbestos Control
Method (AACM), leave some or all RACM in place. Demolition equipment applies mechanical



12-P-0125                                                                                         1
forces that shred the RACM, potentially releasing asbestos fibers into the environment and
endangering public health. Buildings are wetted during demolition in an attempt to limit the
release of asbestos fibers. However, EPA has not approved or shown that these “wet” methods
are protective of human health. In July 2011, EPA’s Office of Research and Development ended
its research on the AACM due to technical deficiencies.

Use of Unapproved Methods Threatens Health and Safety

Our preliminary research indicates that unapproved methods are currently being used or
considered at multiple sites. The Hanford Superfund Site, near Richland, Washington, is one
location where the use of AACM-like methods has been allowed by EPA under conditions that
are less restrictive than required by the Asbestos NESHAP. EPA is also considering other
unapproved methods for demolition at a gaseous diffusion plant in Paducah, Kentucky. The use
of unapproved methods is counter to EPA regulations. The current and proposed use of
unapproved methods may jeopardize the health and safety of the public.

For example, settled dust results obtained from testing during AACM demolition experiments at
Fort Chaffee, Arkansas, and Fort Worth, Texas, demonstrated asbestos fiber releases. Video
footage and photos show government employees and contractors at the demolition sites without
personal protective equipment, a possible violation of OSHA asbestos worker protection
requirements. Because settled dust results indicate that asbestos escaped the restricted areas,
unprotected workers adjacent to the restricted areas and any members of the public in the vicinity
of the sites may have been exposed. EPA should identify the workers that were present, and
notify them according to OSHA regulations. Further, EPA should notify the surrounding public
of potential asbestos exposure during these AACM experiments.

EPA should immediately and clearly communicate NESHAP and OSHA requirements for the
demolition of asbestos-containing structures to regional, program, and field offices to prevent
potentially hazardous asbestos exposures. EPA should notify these offices that unapproved
methods are not to be used without obtaining appropriate waivers. Further, EPA should identify
all sites, such as Hanford, with work plans that contain EPA authorization to use unapproved
methods for asbestos demolitions, and retract any such approvals that deviate from the Asbestos
NESHAP regulation. In addition, EPA should assess whether any authorizations resulted in
potential asbestos exposure of workers or the public, and notify them accordingly.

Thank you for your prompt attention to this important matter. If you have any questions, please
contact me at (202) 566-0847 or elkins.arthur@epa.gov, or Wade Najjum at (202) 566-0827 or
najjum.wade@epa.gov.




12-P-0125                                                                                         2
